  AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

                                         

 OFFICE OF JUVENILE JUSTICE AND DELINQUENCY


            PREVENTION AWARD TO 

THE INSTITUTE FOR EDUCATIONAL LEADERSHIP, 

             WASHINGTON, D.C.



         U.S. Department of Justice


       Office of the Inspector General

                                      

                Audit Division

                              


         Audit Report GR-30-14-001

                                  

                 March 2014

                           

        AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

                                               

OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION


 AWARD TO THE INSTITUTE FOR EDUCATIONAL LEADERSHIP, 

                    WASHINGTON, D.C.



                            EXECUTIVE SUMMARY

                                             


        In September 2012, the Office of Juvenile Justice and Delinquency Prevention
(OJJDP) in the Office of Justice Programs (OJP) awarded a $1,538,000 grant to the
Institute for Educational Leadership (IEL) to support its “Ready to Achieve
Mentoring Program,” or RAMP, in 10 sites across the United States. The RAMP
initiative is a career-focused mentoring program for youth involved with or at risk of
becoming involved with the juvenile justice system.

       The objective of the audit was to determine whether costs claimed under
grant number 2012-JU-FX-0014 were allowable, reasonable, and complied with
applicable laws, regulations, guidelines, and the terms and conditions. To
accomplish this objective, we reviewed grant performance in the following key
areas and activities: (1) the IEL’s internal control environment, (2) grant
expenditures, (3) program performance and accomplishments, (4) drawdowns, (5)
budget management and control, (6) reporting, and (7) contract management. Our
audit found that the IEL generally complied with the award terms and conditions.
However, we identified over $7,000 in unsupported expenditures pertaining to
consultant invoices that did not detail the number of hours or days the consultant
worked on performed tasks. Therefore, we could not verify whether IEL ensured
that the consultant was not paid more than $450 per day, which grant conditions
proscribe.

       The IEL also used a small portion of grant funds to purchase store gift cards
to reward program participants for accomplishing goals. Because gift cards involve
converting grant funds into another instrument that is difficult to track and account
for, we believe the IEL needs to strengthen its efforts to oversee and track all gift
cards procured with grant funds.

       Based on our audit results, we make one recommendation to address dollar-
related findings and one recommendation to improve accountability over gift cards
purchased with Department of Justice (DOJ) grants.
This Page Left Intentionally Blank
                               TABLE OF CONTENTS

                                                



                                                                                           Page

INTRODUCTION ............................................................................. 1

                                                                                            

Audit Approach .............................................................................. 1

                                                                                               

FINDINGS AND RECOMMENDATIONS ............................................. 3

                                                                            

Internal Control Environment ........................................................ 3

                                                                                       

Reporting ....................................................................................... 3

                                                                                                   

  Federal Financial Reports..................................................................4

                                                                                              

  Progress Reports .............................................................................4

                                                                                                 

Program Performance and Accomplishments ................................. 5

                                                                           

Drawdowns .................................................................................... 5

                                                                                                

Budget Management and Control ................................................... 6

                                                                                   

Grant Expenditures ........................................................................ 6

                                                                                             

  Personnel Costs...............................................................................7

                                                                                                 

  Other Tested Costs ..........................................................................7

                                                                                                

  Indirect Costs .................................................................................8

                                                                                                   

Contract Management .................................................................... 9

                                                                                          

Recommendations.......................................................................... 9

                                                                                           

SCHEDULE OF DOLLAR-RELATED FINDINGS ................................. 10

                                                                        

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............. 11

                                                               

APPENDIX II: INSTITUTE FOR EDUCATIONAL LEADERSHIP’S
                

  RESPONSE TO THE DRAFT REPORT .......................................... 13

                                                                            

APPENDIX III: OFFICE OF JUSTICE PROGRAMS RESPONSE
                     

  TO THE DRAFT REPORT .......................................................... 15

                                                                                   

APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

  AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
  REPORT ................................................................................... 18

                                                                                               

This Page Left Intentionally Blank
        AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

                                               

OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION


 AWARD TO THE INSTITUTE FOR EDUCATIONAL LEADERSHIP, 

                    WASHINGTON, D.C.



                                      INTRODUCTION

                                                  


       In September 2012, the Office of Juvenile Justice and Delinquency Prevention
(OJJDP) in the Office of Justice Programs (OJP) awarded a $1,538,000 grant to the
Institute for Educational Leadership (IEL) to support its “Ready to Achieve
Mentoring Program,” or RAMP, in 10 sites across the United States. IEL is a non­
profit organization based in Washington, D.C., that was established in 1964. One
of IEL’s core principles is to lead and professionally develop mentors with the
knowledge and skills needed to help youths succeed.

      IEL’s RAMP initiative is a career-focused model that uses a combination of
group, peer, and individualized mentoring plans focused on helping youth involved
with or at risk of being involved with the juvenile justice system. As such, IEL
reports the goals of the RAMP initiative are to reduce offense rates, increase
secondary school completion rates, and enhance social and work readiness skills by
mentoring participants to set personal and career goals, and identify concrete steps
anchored in their day-to-day lives to help reach them.

Audit Approach

       The objective of the audit was to determine whether costs claimed under
grant number 2012-JU-FX-0014 were allowable, reasonable, and complied with
applicable laws, regulations, guidelines, and the terms and conditions. To
accomplish this objective, we reviewed grant performance in the following key
areas and activities: (1) the IEL’s internal control environment, (2) grant
expenditures, (3) program performance and accomplishments, (4) drawdowns, (5)
budget management and control, (6) reporting, and (7) contract management.
We tested compliance with what we considered the most important grant
conditions. Unless otherwise stated in the report, we used the OJP Office of the
Chief Financial Officer Financial Guide (Financial Guide) as our primary criterion to
assess Institute for Educational Leadership’s performance and compliance with
grant requirements. 1

      We tested what we believed to be critical award requirements necessary to
meet the objectives of the audit, including:

   •	 Internal Control Environment to determine whether the internal controls
    	
      IEL implemented for the processing and payment of funds adequately

        1
           The Financial Guide serves as a reference manual that provides guidance to award
recipients on their fiduciary responsibility to safeguard award funds and to ensure funds are used
appropriately. OJP requires award recipients to abide by the requirements in the Financial Guide.
      safeguard the grant funds and comply with the terms and conditions of the
      grant;

   •	 Reporting to determine if IEL submitted the required federal financial
    	
      reports and progress reports on time and whether such reports accurately
      reflected the activity of the grant activity;

   •	 Program Performance and Accomplishments to determine whether the
    	
      IEL achieved the grant’s objectives and to assess performance and grant
      accomplishments;

   •	 Drawdowns to determine whether IEL adequately supported drawdowns
    	
      requested and managed its grant receipts in accordance with federal
      requirements;

   •	 Budget Management and Control to ensure that IEL appropriately tracked
    	
      costs to approved budget categories;

   •	 Grant Expenditures to determine the accuracy and allowability of costs IEL
    	
      allocated or charged to the grant; and

   •	 Contract Management to ensure IEL complied with overall financial

    	                                                                  

      management requirements for contracts, as applicable.

                                                           


      The award did not include program income or matching funds. The results of
our analysis are discussed in detail in the Findings and Recommendations section of
the report. Appendix I contains additional information on our objective, scope, and
methodology.




                                         2

                                          

                     FINDINGS AND RECOMMENDATIONS

             COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

       We found the Institute for Educational Leadership (IEL) complied with
       essential grant conditions in the areas of reporting, drawdowns,
       budget management and control, program performance and
       accomplishments, and contract management. However, our audit
       found that the IEL should improve its oversight of gift cards purchased
       with grant funds. We also determined that IEL charged the audited
       grant $7,000 in unsupported costs. Based on our audit results, we
       make one recommendation to address the dollar-related finding and
       another to improve IEL’s internal controls over gift cards purchased
       with grant funds.

Internal Control Environment

       According to the Financial Guide, award recipients are responsible for
establishing and maintaining an adequate system of accounting and internal
controls. An acceptable internal control system provides cost controls to ensure
optimal use of funds. Grant recipients must adequately safeguard funds and ensure
they are used solely for authorized purposes. While our audit did not assess IEL’s
overall internal control framework, we did review the internal controls of its
financial management system specific to the administration of grant funds during
the period under review. Specifically, we interviewed pertinent IEL personnel,
reviewed written policies and procedures that affect the OJP award, and reviewed
the financial statement audit and single audit reports. 2

       We found that the independent auditor’s assessment of the financial
statement for fiscal year 2013 disclosed one internal control weakness related to
enhancing the segregation of duties of IEL accounting and administrative staff. To
address this finding, we found that the IEL has hired a part-time clerk to perform
certain accounting duties, which we believe addresses the matter raised in the
financial statement audit.

Reporting

      The special conditions of the award require that the IEL comply with
administrative and financial requirements outlined in both the Financial Guide and
the Office of Management and Budget (OMB) Circular A-133, Audits of States, Local
Governments and Non-Profit Organizations (OMB Circular A-133). The Financial
Guide requires that awardees submit both financial and program progress reports

       2
           Non-federal entities that expend at least $500,000 a year in federal awards must have a
single audit conducted of its financial statements. 28 C.F.R. § 70 (2013). The purpose of the single
audit is to determine whether the financial statements and schedule of expenditures of federal awards
are presented fairly in all material respects and in conformity with generally accepted accounting
principles.

                                                  3

to inform awarding agencies on the status of each award. Federal Financial Reports
(FFRs) should detail the actual expenditures the awardee incurred for each
quarterly reporting period, while awardees should submit progress reports
semiannually that describe the performance activities and achievements of the
project supported by the grant.

       Because accurate and timely FFRs and progress reports are necessary to
ensure that OJP can effectively monitor award activities and expenditures, we
reviewed IEL reports for grant number 2012-JU-FX-0014. As detailed in the
following sections, the IEL submitted all required FFRs and progress reports in a
timely manner and accurately reflected actual program accomplishments.

Federal Financial Reports

       To verify the timeliness of the FFRs, we tested the last four reports submitted
for the audited grant. We compared the submission date of each report to the date
each report was due, and found that all FFRs were submitted on time.

        With regard to the accuracy of the FFRs, the Financial Guide states that a
grantee’s general ledger must support all activity reported on the FFRs. We
discussed the process the IEL used to prepare and submit FFRs with responsible
officials and compared the amounts reported on the last four FFRs to expenditures
recorded in the grantee’s accounting records. Based on our testing, we concluded
that the FFRs reconciled to the financial records.

Progress Reports

      Progress reports are due 30 days after the end of each semiannual reporting
period, which are June 30 and December 31. To assess whether the IEL submitted
progress reports on time, we reviewed two progress reports covering the time
period of October 1, 2012 through June 30, 2013 and compared the submission
dates to the due date for each progress report. We found that both progress
reports were submitted in a timely manner.

       To determine if IEL’s progress reports detailed achievements related to its
program goals and objectives, we analyzed and compared the progress report for
the period January 2013 through June 2013 to the program objectives. Based on
our review, the IEL reported achievements related to its award program goals and
objectives. To assess the accuracy of the progress reports, we selected a sample of
10 reported achievements for the period January 2013 through June 2013 and
compared them to source documentation. Based on our review, we found that the
progress reports accurately reflect the status of the RAMP project supported by the
award.




                                          4

                                           

Program Performance and Accomplishments

       The IEL’s goals for the RAMP initiative are to prevent and reduce juvenile
delinquency and gang participation among at-risk youths, improve their academic
performance, and reduce school dropout rates. To accomplish these goals, the IEL
proposed to use the award to fund projects at 10 RAMP sites across the country
with at-risk youths and their families that were focused on: (1) decreasing truancy,
(2) decreasing instances of arrest and incarceration, (3) increasing social
competencies and social support opportunities, and (4) guiding them through
employment and post-secondary education processes. Each RAMP site is
responsible for accomplishing key components of the program, while the IEL
oversees the success of each project and provides technical assistance as needed.

       To assess the IEL’s progress on meeting grant goals and objectives, we
reviewed the OJP award documents, IEL records, and interviewed IEL and sub-
recipient RAMP program officials. 3 In December 2013, we conducted a site visit to
a sub-recipient and observed a RAMP weekly career-focused meeting led by a
coordinator and youth leaders. During this meeting, program participants
discussed their weekly goals and what they did to achieve them. We also observed
two coordinators discuss with RAMP participants post-secondary education goals,
paid internship opportunities, and types of work available to them after graduation.
Based on the information we reviewed, the site visit, and status reports, we believe
the IEL has carefully tracked the progress of site work and has provided the
technical assistance, oversight, and support to ensure that its sites are on track to
achieve approved grant objectives.

Drawdowns

       To obtain Department of Justice (DOJ) award funds, award recipients must
electronically request funds via drawdowns. The Financial Guide states that award
recipients should only request federal award funds when they incur or anticipate
project costs. Recipients should time their requests for award funds to ensure they
will have only the minimum federal cash on hand required to pay actual or
anticipated costs within 10 days.

       According to IEL personnel, drawdown requests are based on
reimbursements of expenses for salaries, fringe benefits, travel, and training. To
ensure that the IEL requested funds properly and kept a minimum of federal cash
on hand, we analyzed drawdowns the IEL requested within the scope of our review
and compared the overall amount of these drawdowns to the IEL’s general ledger.
Overall, we found that the amount of funds the IEL drew down did not exceed the
cost of expenditures listed in the accounting records.




       3
         Our assessment of grant performance occurred in November and December 2013. The
performance period for the award ends on September 2015.

                                             5

Budget Management and Control

       The Financial Guide states that grantees should expend funds according to
the budget approved by the awarding agency and included as part of the final
award. Approved award budgets document how much the awarding agency
authorized the recipient to spend in high-level budget categories, such as
personnel, supplies, and contractors. The Financial Guide also states that award
recipients may request OJP approval to modify previously approved award budgets
to reallocate funds between different budget categories within the same award. 4
We compared the actual amount the IEL spent in each budget category to the
budgeted amounts in the same categories and found that the IEL adhered to the
Financial Guide budget management requirements.

Grant Expenditures

       According to 2 C.F.R. §230, Cost Principles for Non-Profit Organizations,
costs are allowable if they are reasonable, consistently applied, adequately
documented, comply with policies and procedures, and conform to any limitations
or exclusions specified in applicable criteria. As of September 30, 2013, the IEL’s
general ledger reported $468,654 in costs associated with grant 2012-JU-FX-0014.
We sampled $119,432 (25 percent) in expenses charged to the grant to ensure
they were allowable, and identified $7,000 in questioned costs. 5 The following
exhibit displays by type of sampled cost, the total value of the expenditures in each
category, and the amount of questioned costs our testing identified.

                               SUMMARY OF GRANT COSTS

                                  Total General        Total Costs Tested        Questioned
         Type of Cost           Ledger Costs ($)                ($)               Costs ($)
    Personnel                                76,069                  29,667                   0
    Fringe Benefits                          18,235                   7,161                   0
    Travel                                   24,418                  10,700                   0
    Supplies                                   1,100                  1,080                   0
    Contractual                             292,925                  52,133               7,000
    Other Direct Costs                         3,019                      0                   0
    Indirect                                 52,888                  18,691                   0
                    TOTAL                 $468,654                $119,432               $7,000
    Source: Institute for Educational Leadership’s accounting records




       4
         No prior approval is required if the reallocations between budget categories do not exceed
10 percent of the total award amount.
       5
          Questioned costs are expenditures that are not supported by adequate documentation at
the time of the audit or otherwise do not comply with legal, regulatory, or contractual requirements.
Questioned costs may be remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.


                                                  6

Personnel Costs

       According to the Financial Guide, charges made to federal awards for
salaries, wages, and fringe benefits should be based on payroll records approved by
responsible officials and the charges must comport with the generally accepted
practices of the organization. In particular, where grant recipients work on multiple
grant programs or activities, a reasonable allocation of costs to each activity must
be made based on time and effort reports, such as timesheets.

      We reviewed the IEL’s policies for timekeeping and charging grants the costs
associated with salaries and benefits earned by its personnel. The IEL requires
employees to sign and submit a monthly timesheet that details the time spent on
each project or grant in increments of not less than one-half hour. Compensation is
charged to the various projects or grants based on a pro rata share of actual hours
worked. Supervisors must also review and approve each timesheet.

       To determine if timesheets were properly authorized and resulting personnel
costs were properly allocated to the grant, we judgmentally selected three months
of timesheets to test.6 We examined timesheets and payroll distribution records,
and recalculated salaries and fringe benefits allocated to the grant to ensure the IEL
properly charged costs to the grant. We found that the sample transactions tested
were accurately recorded, properly authorized, and adequately supported.

Other Tested Costs

       We selected a judgmental sample of 24 transactions from the audited award
totaling $82,604 (including resulting indirect costs) to determine if the charges
were included in the approved budget, allowable, and allocable to the DOJ award.

       Consultant Costs

       The grant’s approved budget permitted the IEL to hire subject matter experts
for technical assistance and program development. In October 2012, the IEL
entered into a professional services contract with a career and disability services
expert that had an amended value of $12,000. 7 In June and August 2013, the
consultant submitted invoices to IEL for $6,000 and $1,000. We reviewed these
two invoices and found they lacked sufficient detail regarding the work the
consultant performed for each billing period. For example, while the June 2013
invoice was for six months of work, the invoice only listed specific work performed


       6
           The Institute for Educational Leadership allocates its payroll on a monthly basis. We
selected the months of March 2013, June 2013, and August 2013 for our testing. Salaries and fringe
benefits for these months totaled $36,828.
       7
          The scope of work for this contract requires the contractor to: (1) provide technical
assistance to sub-recipient sites, (2) help support and grow the program network, (3) perform other
duties as assigned, and (4) develop a specific work-plan and perform under the guidance of IEL
employees. In September 2013, IEL amended the contract to increase its value from $9,000 to
$12,000.

                                                  7

on five days (June 11,12, 17, 18 and 19). Other detail included on the invoice we
found to be vague, such as “maintained email contact with IEL staff.”

       In addition, we note the invoices did not detail the number of days or hours
the consultant worked on each task. The OJP Financial Guide limits consultant
compensation to $450 per day, or just over $56 per hour. Because the invoices did
not include the number of hours the consultant worked per day for tasks she
performed, we could not verify whether the consultant exceeded the $450 daily
limit. Therefore, we consider the $7,000 in consultant payments to be unsupported
and recommend that OJP remedy $7,000 in questioned costs.

        Gift Cards

        We found that IEL used a small portion of grant funds to purchase store gift
cards to reward youth for accomplishing goals. Because gift cards involve
converting grant funds into another instrument that is difficult to track and account
for, purchasing store gift cards with grant funds, however allowable, represents an
inherent risk. Grantees therefore need to carefully oversee and document how they
and their sub-recipients use gift cards purchased with grant funds. 8 In our
judgment, IEL’s efforts to oversee and track gift cards could be improved. For
example, we found one instance where the IEL did not verify that their sub-
recipient received 50 gift cards with a total value of $650 it purchased for
mentoring prizes. We recommend that the OJP ensure that the IEL implement
strict controls that account for sub-recipient’s use of gift cards purchased with grant
funds.

Indirect Costs

       Indirect costs are those that have been incurred for common or joint
objectives and cannot be readily identified with a particular final cost objective such
as a grant or contract. Examples of indirect costs include overhead and
administrative expenses. According to the OJP Financial Guide, grantees need to
establish and seek approval for an indirect cost rate with their cognizant federal
agency to receive reimbursement for indirect expenses. In February 2011, the U.S.
Department of Health and Human Services approved a 24.4 percent indirect cost
rate for IEL beginning July 1, 2012. 9 The IEL charged its indirect cost rate to
salaries and travel costs incurred by the grant. As of September 2013, IEL had
recorded $52,888 of indirect costs allocated to the audited grant in its general
ledger, which represented 32 percent of the total approved indirect cost budget of



        8
           The OIG has identified serious concerns with regard to how other recipients of grant funds
track and handle gift cards. See U.S. Department of Justice Office of the Inspector General, Audit of
the Office of Justice Programs Edward Byrne Memorial Justice Assistance Grants Awarded to
Philadelphia Safety Net, Philadelphia, Pennsylvania, Audit Report GR-70-14-001 (January 2014), 15.

       9
         The IEL applied its approved indirect rate to all direct costs except for contractual services,
which was allocated at 8 percent.


                                                    8

$164,788. Based on our review of IEL records, we conclude that the indirect costs
IEL charged to the grant were appropriately calculated and applied to the grant.

Contract Management

       The IEL awarded a total of 11 contracts under the audited grant, 10 of which
provided $50,000 to each RAMP initiative sub-recipient sites. The IEL awarded one
additional contract, valued at $12,000, for consulting services. 10 Sub-recipients are
required to submit a monthly request for payment showing RAMP related
expenditures at the end of each month. We found that each sub-recipient site
support contract requires each sub-recipient to spend grant funds under an
approved budget.

      The IEL conducts an annual site visit to each sub-recipient to monitor the
programmatic and fiscal aspects of the grant. As discussed previously, in
December 2013, we conducted a site visit to a sub-recipient in part to gain the
assurance that the sub-recipient maintained adequate controls over the funds they
received. We interviewed the sub-recipient coordinator and finance personnel and
reviewed the supporting documents for three site reimbursements that we had
previously selected for testing and found the costs supported and allowable.

Recommendations

        We recommend that OJP:

        1.	
          	     Remedy $7,000 in unsupported consultant costs.

        2.	
          	     Ensure that IEL implement strict controls that account for sub­
                recipient’s use of gift cards purchased with grant funds.




        10
            The Grant Expenditures section of this report details the results of our testing of the
allowability of costs incurred under these contracts.

                                                    9

        SCHEDULE OF DOLLAR-RELATED FINDINGS

                                           


DESCRIPTION                                      AMOUNT ($)     PAGE

QUESTIONED COSTS


  Unsupported Costs

    Invoiced consultant costs lacking required          7,000    8
    detail

  Total Unsupported Costs                              7,000

TOTAL QUESTIONED COSTS                                 7,000




                                      10

                                        

                                                                     APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of the audit was to determine whether costs claimed under
grant number 2012-JU-FX-0014 were allowable, reasonable, and complied with
applicable laws, regulations, guidelines, and the terms and conditions. To
accomplish this objective, we reviewed grant performance in the following key
areas and activities: (1) the IEL’s internal control environment, (2) grant
expenditures, (3) program performance and accomplishments, (4) drawdowns,
(5) budget management and control, (6) reporting, and (7) contract management.
We also assessed IEL’s program performance in meeting the grant objectives and
overall accomplishments. We determined that program income and matching costs
were not applicable to this grant.

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

       Our audit focused on activities funded by the $1,538,000 Office of Justice
Programs (OJP) grant (grant number 2012-JU-FX-0014) awarded to IEL’s Center for
Workforce Development to operate its Ready to Achieve Program (RAMP). Unless
otherwise noted, the scope of our review included OJP funded activity from the
inception of the subject award in October 2012 to September 2013. To accomplish
the objectives of the audit, we interviewed IEL personnel responsible for overseeing
program performance, monitoring sub-recipient activity, and compiling and
approving financial and progress reports. We examined IEL grant records,
timesheets, contracts and other documents supporting activity funded by the
subject grant. We also considered the internal controls the IEL had established and
used to guide the requesting, approving, and recording of grant-related expenses
during the scope of our review. We did not assess the overall reliability of IEL’s
financial management system or internal controls of that system.

       We tested compliance with what we considered to be the most important
conditions of the award. Unless otherwise stated in our report, the criteria we audit
against are contained in the OJP Office of the Chief Financial Officer’s Financial
Guide and the awarding documents such as the OJP-approved grant narrative and
budget. In addition, we assessed the timeliness and accuracy of financial and
progress reports submitted by the IEL and evaluated grant performance in relation
to the grant objectives. We performed sample testing in the following areas:

   •	 Reporting. To determine whether the required Federal Financial Reports
    	
      and Progress Reports were submitted in a timely manner and accurately
      reflect award activity.


                                         11

   •	 Program Performance and Accomplishments. To determine whether IEL
    	
      met the award goals and objectives.

   •	 Drawdowns. We analyzed IEL’s overall drawdowns of $468,654 for the
    	
      Department of Justice (DOJ) award from the inception of the award through
      September 30, 2013. IEL provided documentation supporting the drawdown
      requests.

   •	 Payroll Costs. We judgmentally selected March, June, and August 2013 pay
    	
      periods to test and we determined whether personnel costs were computed
      correctly, properly authorized, accurately recorded, and properly allocated.
      We also analyzed the fringe benefits costs to ensure the charges were
      consistent with the approved budgeted amounts.

  •	
   	   Other Expenditures. To test the IEL’s transactions for authorizations,
       vouchers, and supporting documentation, we judgmentally selected 24 non-
       payroll transactions totaling $82,604. We analyzed the transactions to
       determine if the costs were properly authorized, classified, recorded,
       supported, and charged to the grant.

       We employed such judgmental sampling designs to obtain a broad exposure
to numerous facets of the grant reviewed, such as high-dollar amounts or
expenditure category based on the approved grant budget. We judgmentally
selected a sample of 30 transactions from a universe of 130. This non-statistical
sample design does not allow for the projection of the test results to the universe
from which we selected our sample.

       We did not test internal controls for the IEL taken as a whole or specifically
for the grant program administered by OJP. An independent public accounting firm
conducted an audit of IEL’s financial statements. The results of this audit were
included in the Single Audit Report that accompanied the Independent Auditors’
Report for the last three years. The Single Audit Report was prepared under the
provisions of Office of Management and Budget Circular A-133. We reviewed the
independent auditor’s assessment to identify control weaknesses and significant
non-compliance issues related to the IEL and assessed the risks of those findings in
our audit. We found that the independent auditor’s assessment for fiscal year 2013
disclosed one internal control weakness related to enhancing the segregation of
duties of IEL accounting and administrative staff. To address this finding, we found
that the IEL has hired a part-time clerk to perform certain accounting duties, which
we believe has addressed the matter raised in the financial statement audit.

        Throughout our review, we relied on computer-generated data contained in
IEL’s financial management system and OJP’s Grants Management System (GMS).
We did not establish the reliability of the data contained in either IEL’s financial
management system or GMS as a whole. However, when the data we relied upon
is viewed in context with other available evidence, we believe the opinions,
conclusions, and recommendations included in this report are valid.


                                         12

                                                                                                               APPENDIX II

INSTITUTE FOR EDUCATIONAL LEADERSHIP’S RESPONSE
               TO THE DRAFT REPORT




   Leading Across Boundaries
   'nstitute rOf   E~""BtI,,"al l<NIde~p




         March 17, 2014

        Troy M. Meyer
        Regional Audit Manager
        W~shinglon Regional Audit Office
        Office o f the Inspector General
        U.S. Department of Justice
        1300 North 17'" Street, Su ite 3400
        Arlington, VA 22209
        VIA: U.S. Mail and Electronic Mail at: troy.mever@usdo j.Rov

         Dear Mr. Meyer:

        The Institute for Educational leadership (IEl) Is in receipt of the draft audit report issued February 27,
        2014 from the U.S. Department of Justice (DOJ), Office of the Inspector General (OIG), Washington
        Regional Audit Office. lEt appreciates the time and professionalism of the audit team and has now
        thoroughly revi ewed the draft audit report for the Ready to Achieve Mentoring Program (RAMP) which
        is being implemen ted by lEt at 10 sites under a grant from the Office of Juvenile Justice and Delinquency
        Prevention (OlJDP) of the Office of Justice Programs (OJP). For the most part, IEl found the draft audit
        report t o be fair and accurate and the two recommendations to be reasonable and easily addressed. lEt
        will respond separately to each recommendation below. In addition, IEl found a small typo on page 9 of
        the report in the second paragraph under ~Co ntract Management~ where the yea r of the site visit is
        incorrectly cited as 2012 instead of 2013. Otherwise, IEl found the review of our internal contro l
        enviro nment, reporting. progrilm perlormance and accomplishme nts, drawdowns, budget management
        and control . grilnt expenditures and contract management to be quite effective and app reciates the
        overwhelmingly posi t ive feedback on IEL's monitoring procedures and RAMP program activities. Below
        are our specific responses to the two recommendations from the OIG iludit team :

                     Rpmpt1v <;7 nno in un~unnnrtp d c(ln~ul tant costs: lEt concurs w ith this recommendation.
                     Although many of the consultant's activities were done in conjunction with tEt staff (emails, site
                     visi ts, monthly con fe rence call s, annual meeting, and technical assistance to sites) such that lEt
                     staff did confirm that work was completed, lE t recognizes that the invoices previously submiHed
                     by this consulta nt did not detail this work or list the actual hours in which it was completed. IEl
                     agrees t hat due to the insufficient detail of these previous invoices, it would be difficult for
                     someone unfamiliar with Ihe consultant's work to ascertain the hours worked or that the rale
                     paid was less than the $4S0 per day OJP limit. let has since requested detailed invoices from the
                     consultant for the t ime periods in quest ion which list each task completed and the time spent.
                     These updated and more detailed invoices (Attachment 1: Detailed Consultant Invoices) clarify
                     that the daily rate paid to the consu ltant was $322 for the 6 month pe riod and only $238 for the
                     one month invoice in question (both well under the $450 limit). In the future, let will request
                     this type of detailed invoice from all consulta nts regardless o f staffs familiarity with the work
                     completed.

              2.     Ensure that IEl implement stde! controls that actount for sub-recipient's use of gift cards
                     pun;:hased with gfllnt funds: IEl concurs in part with this recommendation. The audit report


    4301 Connecticut Avcnuc. NW. SU ite 100. Wash ington . DC 20008 • 202 822-8405 • wwwlel.org




                                                                 13

                                                                   

leading Across Boundaries
In~I~Ule lot Ed",,-';tonalle_·..hlp



               stated ~Gran!eeS need to carefully oversee and document how they and their sub-recipients use
               gift ca rds purchased with grant funds" and then cites as an example ~one instance where IEL did
               not verify that their sub-recipient received 50 gift cards with a to t al value of $650 purchased for
               mentorlng prizes.~ Due to the high incidence of gift card usage among RAMP sites (many youth
               do not have bank accounts and cash is even harder to track), IEL has a specific section about gift
               cards in the RAMP financial guidelines (Attachment 2: RAMP Financial Guidelines). These
               guidelines state in part, "When distributing gift cards for mentee incentives or mentor stipends,
               it is a requirement that you document who received the gift card, when they received it, and
               why. Creating an heel spreadsheet for tracking distribution is highly recommended. Also, a gift
               card recipient must sign and date a form acknowledging receipt of said gift card upon receipt.
               This documen tation should be kept on site.H IEL has verified that gift cards are being tracked
               and signed for at all sites as part of its annual site visit procedure. In the example cited by the
               auditors, IEL purchased gift cards for one RAMP site which is unable to purchase gift cards in a
               Umely or efficient fashion under their county purchasing structure. As part of its technical
               assistance, IEL purchases gift cards for this site and subtracts it from t he site's appropriate
               budget line. These cards are mailed directly to the site which then tracks the gift cards
               according to IEL guidelines in a similar marmer as all the other sites (see attached site trackiflg
               Sheet for $650 - Attachment 3: RAMP Site Gift Card Tracking Sheets). In this instance, the site's
               tracking sheet even shows the date the gift cards were received from IEL. The gift card amounts
               and dates received match wi th IEL's purchasing documentation. As this is the orlly site that IEL
               purchases gift cards for, IEL did not establish a formal process for confinning that cards ordered
               were actually received by the site. Most of the time, the site coordinator would confirm by
               email or phone Ihat the cards were received. IEl concurs that the gift card shipping process for
               the one RAMP site whiCh receives them could be better documented. IEl has developed a
               system through which all future gift card purchases for this site will be tracked so that IEL can
               confirm receipt in a consistent and timely manner (Attachment 4: IEL Confirmation of Gift Card
               Purchase & Receipt). From this date forward, IEL will track the date and amount of each
               purchase, as well as Ihe date of receipt by the site, and then save a copy of the receipt
               confirmation,

     As stated above, IEl was very pleased with the thoroughness, responsiveness, and fairness of this entire
     audit process. We appre<:iate the two recommendations above which will make IEl even more
     financiaUy sound as we move forward. IEL would like to especially commend your audit team, Elisa Lee,
     Juan Figueroa, and John Manning. for their professionalism and helpful explanations durillg what can
     often be quile a nerve-racking process for both sides. Please let us know if we need to provide any
     additiollal document alion or informalion.




                                                         Insti   te for Educational leadership




 4301 Connectlclit Avenue. NW. SUite 100, Washlllgton. DC 20008 · 202·8228405 ' wwwlel org




                                                           14

                                                             

                                                                                            APPENDIX III

     OFFICE OF JUSTICE PROGRAMS RESPONSE
           TO THE DRAFT REPORT


                                                      U.S.   D~partment       of Justice

                                                      Office 0/ Jus/ice Programs

                                                     Office 0/Audil. Assessmenl. and Management



                                                     w",/ti"""" D.C. )()JJI

     ~AR    10 1014


MEMORANDUM TO:                   Troy M. Meyer
                                 Regional Audit Manager
                                 Washington Regional Audit Office
                                 Office of the Inspector General


FROM:                          CJt1;rS"~
                                 Acting Director

SUBJECT:                         Response to the Draft Audit Report, Audil of/he Office 0/Jus/ice
                                 Programs. Office 0/Juvenile Juslice and Delinquency Prevenlion
                                 Award 10 the Instilule fo r Educalional Leadership

This memorandum is in reference to your correspondence, dated February 27, 2014, transmitting
the above-referenced draft audit report for the Institute for Educational Leadership (l EL). We
consider the subject report resolved and request wri tten aue ptance of this action from your
office.

The draft report contains two reeommendations and $7,000 in quest ioned costs. The following is
the Office of Justice Programs' (OJP) analys is of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

I.         We r«ommend that OJP remed y $7,000 in uusupported consu ltant cost5.

           OlP agrees with the recommendation. We will coordinate with IEL to obtain
           documentation to support the $7,000 in consultant costs. If adequate documentation
           cannot be provided, lEL will be required to return the funds to the U.S . Department of
           lustice.

2.         We recommend th"t OJP ensure thu lEL impl ement strict controls that account for
           su b-recipient's usc of gift cards purchased with gra nt funds.

           OlP agrees with the recommendation. We will coordinate with IEL to obtain a copy of
           policies and procedures developed and implemented to strengthen controls over the
           purchase and use of gift cards, whieh were acquired by its sub-recipients with Federal
           grant funds .




                                                   15

                                                     

We appreciate the oppoltunity to review and comment on the draft audit repolt. If you have any
questions or require additional information, please contact J effery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

ee:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Robert L. Listenbcc
       Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Chryl Jones
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Amy Callaghan
       Special Assistant
       Office of Juvenile Justice and Delinqucncy Prevention

       Kern Stmg
       Juvenile Justice Specialist
       Office of Juvenile Justice and Delinquency Prevcntion

       Leigh A. Benda
       Chief Financial Officer

       Christal McNeil-Wright
       Associate Chief Financial Officer
       Grant~ Financial Management Division
       Office of the Chief Financial Officer

       Jerry Conty
       Assistant Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief Financial Officer

       Lucy Mungle
       Manager, Evaluation and Oversight Division
       Grants Financial Management Division
       Office ofthc Chief Financial Officer

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division




                                               16

                                                 

cc:   OJP Executive Secretariat
      Control Nmnber IT20 140228094920




                                         17

                                           

                                                                    APPENDIX IV

               OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS 

                NECESSARY TO CLOSE THE REPORT

                                             


        The OIG provided a draft of this audit report to the Office of Justice Programs
(OJP) and the Institute for Educational Leadership (IEL). The OJP response is
incorporated in Appendix III and the IEL response is incorporated in Appendix II of
this final report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

Recommendation:

     1.	
       	   Remedy $7,000 in unsupported consultant costs.

           Closed. This recommendation is closed. The OJP concurred with the
           recommendation and the IEL provided detailed invoices that list the
           specific contract services completed and the number of hours per day
           spent on these services.

           We reviewed this documentation and determined it adequately addressed
           our recommendation.

     2.	
       	   Ensure that IEL implement strict controls that account for sub­
           recipient’s use of gift cards purchased with grant funds.

           Closed. This recommendation is closed. The OJP concurred with the
           recommendation and the IEL provided the tracking sheet maintained by
           the sub-recipient which includes the date they received the gift cards.
           The IEL also maintains confirmation emails from the sub-recipient
           documenting the receipt of the gift cards purchased since January 2014 to
           corroborate with the tracking sheet.

           We reviewed this documentation and determined it adequately addressed
           our recommendation.




                                          18

                                            

